Supreme Court, u"s"
FILED

No.

JUN f o 2021
OFFICE OF THE Cl FR*

IN THE
SUPREME COURT OF THE UNITED STATES

CLINT RAYMOND WEBB - PETITIONER
vs.
WYOMING DEPARTMENT OF CORRECTIONS
MEDIUM INSTITUTION WARDEN, ET AL - RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO
UNITED STATES COURT OF APPEALS FOR THE TENTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI

Clint Raymond Webb #30342
WMCI
7076 Road 55F
Torrington, WY 82240

QUESTION(S) PRESENTED

I.

If a state creates a liberty interest by providing a procedural mechanism
to enforce and ensure a defendant's constitutional right to a speedy trial,
is that rule prohibited from being applied to the Due Process Clause of the
Fourteenth Amendment?

LIST OF PARTIES

[X] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of all
parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION,

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

8

REASONS FOR GRANTING THE WRIT

11

CONCLUSION

36

INDEX TO APPENDICES
APPENDIX A

Decision of the U.S. Court of Appeals for the Tenth Circuit

APPENDIX B

Decision of the U.S. District Court for the District of Wyoming

APPENDIX C

Decision of State Supreme Court for Writ of Certiorari / Review

APPENDIX D

Decision of State District Court for Post-Conviction Relief

APPENDIX E

Decision of State Supreme Court for Direct Appeal

APPENDIX F

Transcript of Motions Hearing, June 29, 2015, pg. 23

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

U.S. SUPREME COURT
Almendarez-Torres v United States, 523 U.S. 224, 237-238, 140 L. Ed. 2d 350,
118 S. Ct. 1219 (1998)

24

Betterman v. Montana, 136 S. Ct. 1609, 1616, 194 L. Ed. 2d 723 (2016)

26

Bloate v. United States, 559 U.S. 196, 198-99, 130 S. Ct. 1345, 176 L. Ed. 2d 54
(2010)

32

Clark v. Martinez, 543 U.S. 371, 378, 382, 385, 386; 125 S. Ct. 716, 160 L. Ed. 2d
734 (2005)

17, 24-25

Connally v. General Constr. Co., 269 U.S. 385, 391, 46 S. Ct. 126, 70 L. Ed.
322 (1926)

23

Cooper v. Oklahoma, 517 U.S. 348, 367-368,134 L. Ed. 2d 498, 116 S. Ct. 1373
(1996)

13-14

Dent v. West Virginia, 129 U.S. 114, 123, 32 L. Ed. 623, 9 S. Ct. 231 (1899)

15, 35

Dickey v. Florida, 398 U.S. 30, 37-38, 26 L. Ed. 2d 26, 90 S. Ct. 1564 (1970)

12-13

Hicks v. Oklahoma, 447 U.S. 343, 346, 65 L. Ed. 2d 175, 100 S. Ct. 2227
(1980)

12, 34, 36

Jennings v. Rodriguez, 138 S. Ct. 830, 836; 200 L. Ed. 2d 122 (2018)
Johnson v. United States, 576 U. S., at
(2015)

25

135 S. Ct. 2551, 192 L. Ed. 2d 569, 577
23

Klopfer v. North Carolina, 386 U.S. 213, 223, 226-227; 18 L. Ed. 2d 1, 87 S. Ct. 988
(1967)

13, 22

Kolenderv. Lawson, 461 U.S. 352, 357-358, 103 S. Ct. 1855, 75 L. Ed. 2d
903 (1983)

23

Papachristou v. Jacksonville, 405 U.S. 156, 162, 92 S. Ct. 839, 31 L. Ed. 2d
110 (1972)

23

Sessions v. Dimaya, 138 S. Ct. 1204, 1212, 200 L. Ed. 2d 549 (2017)

23

Strunk v. United States, 412 U.S. 434, 440, 37 L. Ed. 2d 56, 93 S. Ct. 2260 (1973).14
United States ex rel. Attorney General v Delaware & Hudson Co., 213 U.S. 366,
408, 53 L. Ed. 836, 29 S. Ct. 527 (1909)

24-25

United States v. MacDonald, 456 U. S. 1, 7, n. 7, 102 S. Ct. 1497, 71 L. Ed. 2d
696 (1982)

26

United States v. Rojas-Contreras, 474 U.S. 231, 239-40, 88 L. Ed. 2d 537, 106 S. Ct.
555 (1985)

27, 28

United States v. Santos, 553 U.S. 507, 522, 128 S. Ct. 2020, 170 L. Ed. 2d 912, 916
(2008)

16, 17

Vitek v. Jones, 442 U.S. 480, 488,63 L. Ed. 2d 552, 100 S. Ct. 1254 (1980)

15

Wilkinson v. Austin, 545 U.S. 209, 221-222, 162 L. Ed. 2d 174, 125 S. Ct. 2384
(2005)

14, 15, 35

Wolff vMcDonnell, 418 U.S. 539, 558, 41 L. Ed. 2d 935, 94 S. Ct. 2963 (1974)..15, 35
U.S. DISTRICT AND CIRCUIT COURTS
Green v. Andrews, 2010 U.S. Dist. LEXIS 47694 (6th Cir. 2010)

12

Reno v. Davis, 2017 U.S. Dist. LEXIS 213593 (9th Cir. 2017)..........

12

Scott v. Murphy, 343 Fed. Appx. 338, 340 (10th Cir. 2009).................

34

Stuart v. Fisher, 2012 U.S. Dist. LEXIS 126353, 9 (9th Cir. 2012)...

21, 34

United States v. Alvarez-Perez, 629 F.3d 1053, 1060 (9th Cir. 2010)

33

United States v. Bermea, 30 F.3d 1539, 1567 (5th Cir. 1994).............

27

United States v. Gonzales, 897 F.2d 1312, 1316 (5th Cir. 1990)........

31

United States v. Hayden, 860 F.2d 1483, 1486 (C.A. 9th Cir. 1988)..

31

United States v. Hoslett, 998 F.2d 648, 658 n.12 (9th Cir. 1993).......

27, 28

United States v. Kennedy, 1994 U.S. App. LEXIS 21374, 4-5 (C.A. 7th Cir. 1994)..31
United States v. Marshall, 935 F.2d 1298, 1302 (D.C. Cir. 1991)__

31

United States v. O'Dell, 154 F.3d 358, 360 (6th Cir. 1998)................

30

United States v. Pina, 724 Fed. Appx. 413, 418 (6th Cir. 2018)........

32

United States v. Young, 528 F.3d 1294, 1295-1296 (llth Cir. 2008)

27

Uzzle v. Fleming, 2017 U.S. Dist. LEXIS 130198 (4th Cir. 2017) ....

12

WYOMING COURTS
Bird v. State, 901 P.2d 1123, 1129 (Wyo. 1995)
Caton v. State, 709 P.2d 1260 (Wyo. 1985)
Detheridge v. State, 963 P.2d 233 (Wyo. 1998)

Hall v. State, 911 P.2d 1364 (Wyo. 1996)
McDermott v. State, 897 P.2d 1295, 1300 (Wyo. 1995)

25-26, 34-35
21

13, 35
17-18, 20
31-32

Rhodes v. State, 348 P.3d 404 (Wyo. 2015)
State v. Bridger, 2014 Wyo. LEXIS 193 (Wyo. 2014)

18, 19, 20
25-26, 34-35

Tate v. State, 382 P.3d 762, 766, 767 (Wyo. 2016)

13, 26, 35

Webb v. State, 401 P.3d 914, 920, 930 (Wyo. 2017)

19, 21, 28

Zanetti v. State, 783 P.2d 134 (Wyo. 1989)

14

CONSTITUTION. STATUTES AND RULES
Constitution of the United States
Amendment 5

passim

Amendment 6

passim

Amendment 14

.passim

Federal Rules of Criminal Procedure
Rule 2
Rule 48

3, 21
4

United States Code Service
18 USCS § 3161

4, 26, 30-32

18 USCS § 3162

6, 33

Wyoming Rules of Criminal Procedure
Rule 2
Rule 48

6, 21
.passim

OTHER
Black’s Law Dictionary

20

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment
below.
OPINIONS BELOW
[X] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix A to
the petition and is
[X] reported at not vet reported
or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is published.
The opinion of the United States district court appears at Appendix B to
the petition and is
[X] reported at not reported
.> or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is published.
[X] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix C and Appendix E to the petition and is
[X] reported at Webb v. State, 401 P.3d 914 (Wyo. 2017).; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is published.
The opinion of the Seventh Judicial District Court of Wyoming court appears
at Appendix D to the petition and is
[X] reported at not reported
or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is published.
Page 1 of 37
Clint Webb v. Wyoming DOC Medium Institution Warden, Et Al

JURISDICTION
[X] For cases from federal courts:
The date on which the United States Court of Appeals decided my case was
March 15, 2021.
[X] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:_____________
., and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including
(date) on
(date) in
Application No..
The jurisdiction of this Court is invoked under 28 U.S.C. § 1254(l).

[X] For cases from state courts:
The date on which the highest state court decided my case was September 15,
2017 (Direct Appeal) and January 17, 2019 (Writ of Certiorari / Review). A
copy of those decisions appears at Appendix C and Appendix E, respectively.
[ ] A timely petition for rehearing was thereafter denied on the following
date:______________
., and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including
(date) on
(date) in
Application No..
The jurisdiction of this Court is invoked under 28 U.S.C. § 1257(a).

Page 2 of 37
Clint Webb v. Wyoming DOC Medium Institution Warden, Et Al

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
CONSTITUTION OF THE UNITED STATES
AMENDMENT 5
No person shall be held to answer for a capital, or otherwise infamous crime, unless
on a presentment or indictment of a Grand Jury, except in cases arising in the land
or naval forces, or in the Militia, when in actual service in time of War or public
danger; nor shall any person be subject for the same offence to be twice put in
jeopardy of life or limb; nor shall be compelled in any criminal case to be a witness
against himself, nor be deprived of life, liberty, or property, without due process of
law; nor shall private property be taken for public use, without just compensation.
AMENDMENT 6
In all criminal prosecutions, the accused shall enjoy the right to a speedy and public
trial, by an impartial jury of the State and district wherein the crime shall have
been committed, which district shall have been previously ascertained by law, and
to be informed of the nature and cause of the accusation; to be confronted with the
witnesses against him; to have compulsory process for obtaining witnesses in his
favor, and to have the Assistance of Counsel for his defense.
AMENDMENT 14
All persons born or naturalized in the United States, and subject to the jurisdiction
thereof, are citizens of the United States and of the State wherein they reside. No
State shall make or enforce any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall any State deprive any person
of life, liberty, or property, without due process of law; nor deny to any person
within its jurisdiction the equal protection of the laws.

FEDERAL RULES OF CRIMINAL PROCEDURE
Rule 2. Interpretation
These rules are to be interpreted to provide for the just determination of every
criminal proceeding, to secure simplicity in procedure and fairness in
administration, and to eliminate unjustifiable expense and delay.

Page 3 of 37
Clint Webb v. Wyoming DOC Medium Institution Warden, Et Al

Rule 48.

Dismissal

(a) By the Government. The government may, with leave of court, dismiss an
indictment, information, or complaint. The government may not dismiss the
prosecution during trial without the defendant's consent.
(b) By the Court. The court may dismiss an indictment, information, or complaint
if unnecessary delay occurs in:
(1) presenting a charge to a grand jury,'
(2) filing an information against a defendant; or
(3) bringing a defendant to trial.
UNITED STATES CODE SERVICE
18 USCS § 3161.

Time limits and exclusions

(c) (l) In any case in which a plea of not guilty is entered, the trial of a defendant
charged in an information or indictment with the commission of an offense
shall commence within seventy days from the filing date (and making public)
of the information or indictment, or from the date the defendant has
appeared before a judicial officer of the court in which such charge is pending,
whichever date last occurs. If a defendant consents in writing to be tried
before a magistrate [United States magistrate judge] on a complaint, the trial
shall commence within seventy days from the date of such consent.
(h) The following periods of delay shall be excluded in computing the time within
which information or an indictment must be filed, or in computing the time within
which the trial of any such offense must commence:
(l) Any period of delay resulting from other proceedings concerning the
defendant, including but not limited to
(A) delay resulting from any proceeding, including any examinations, to
determine the mental competency or physical capacity of the defendant;
(5) If the information or indictment is dismissed upon motion of the attorney for
the Government and thereafter a charge is filed against the defendant for the
same offense, or any offense required to be joined with that offense, any period
of delay from the date the charge was dismissed to the date the time limitation

Page 4 of 37
Clint Webb v. Wyoming DOC Medium Institution Warden, Et Al

would commence to run as to the subsequent charge had there been no previous
charge.
(7) (A) Any period of delay resulting from a continuance granted by any judge
on his own motion or at the request of the defendant or his counsel or at the
request of the attorney for the Government, if the judge granted such
continuance on the basis of his findings that the ends of justice served by
taking such action outweigh the best interest of the public and the defendant
in a speedy trial. No such period of delay resulting from a continuance
granted by the court in accordance with this paragraph shall be excludable
under this subsection unless the court sets forth, in the record of the case,
either orally or in writing, its reasons for finding that the ends of justice
served by the granting of such continuance outweigh the best interests of the
public and the defendant in a speedy trial.
(B) The factors, among others, which a judge shall consider in determining
whether to grant a continuance under subparagraph (A) of this paragraph in
any case are as follows:
(i) Whether the failure to grant such a continuance in the proceeding
would be likely to make a continuation of such proceeding impossible,
or result in a miscarriage of justice.
(ii) Whether the case is so unusual or so complex, due to the number of
defendants, the nature of the prosecution, or the existence of novel
questions of fact or law, that it is unreasonable to expect adequate
preparation for pretrial proceedings or for the trial itself within the
time limits established by this section.
(iii) Whether, in a case in which arrest precedes indictment, delay in
the filing of the indictment is caused because the arrest occurs at a
time such that it is unreasonable to expect return and filing of the
indictment within the period specified in section 3161(b) [18 USCS
3161(b)] or because the facts upon which the grand jury must base its
determination are unusual or complex.
(iv) Whether the failure to grant such a continuance in a case which,
taken as a whole, is not so unusual or so complex as to fall within
clause (ii), would deny the defendant reasonable time to obtain
counsel, would unreasonably deny the defendant or the Government
continuity of counsel, or would deny counsel for the defendant or the
attorney for the Government the reasonable time necessary for
effective preparation, taking into account the exercise of due diligence.
Page 5 of 37
Clint Webb v. Wyoming DOC Medium Institution Warden, Et Al

(C) No continuance under subparagraph (A) of this paragraph shall be
granted because of general congestion of the courts calendar, or lack of
diligent preparation or failure to obtain available witnesses on the part of
the attorney for the Government.
18 U.S.C. § 3162. Sanctions
(a) (2) If a defendant is not brought to trial within the time limit required by
section 3161(c) [18 USCS 3161(c)] as extended by section 3161(h) [18 USCS
3161(h)], the information or indictment shall be dismissed on motion of the
defendant. The defendant shall have the burden of proof of supporting such
motion but the Government shall have the burden of going forward with the
evidence in connection with any exclusion of time under subparagraph
3161(h)(3) [18 USCS 3161(h)(3)]. In determining whether to dismiss the case
with or without prejudice, the court shall consider, among others, each of the
following factors- the seriousness of the offense,' the facts and circumstances
of the case which led to the dismissal,' and the impact of a reprosecution on
the administration of this chapter [18 USCS 3161 et seq.] and on the
administration of justice. Failure of the defendant to move for dismissal prior
to trial or entry of a plea of guilty or nolo contendere shall constitute a waiver
of the right to dismissal under this section.
WYOMING RULES OF CRIMINAL PROCEDURE
Rule 2. Purpose and construction.
These rules are intended to provide for the just determination of every criminal
proceeding. They shall be construed to secure simplicity in procedure, fairness in
administration and the elimination of unjustifiable expense and delay.
Rule 48. Dismissal; speedy trial.
(a) By attorney for the state. The attorney for the state may, by leave of court, file a
dismissal of an indictment, information or citation, and the prosecution shall
thereupon terminate. Such a dismissal may not be filed during the trial without
the consent of the defendant.
(b) Speedy trial.
(l) It is the responsibility of the court, counsel and the defendant to insure that
the defendant is timely tried.
Page 6 of 37
Clint Webb v. Wyoming DOC Medium Institution Warden, Et Al

(2) A criminal charge shall be brought to trial within 180 days following
arraignment unless continued as provided in this rule.
(3) The following periods shall be excluded in computing the time for trial:
(A) All proceedings related to the mental illness or deficiency of the
defendant;
(B) Proceedings on another charge;
(C) The time between the dismissal and the refiling of the same charge; and
(D) Delay occasioned by defendant's change of counsel or application
therefor.
(4) Continuances exceeding 180 days from the date of arraignment may be
granted by the trial court as follows:
(A) On motion of defendant supported by affidavit; or
(B) On motion of the attorney for the state or the court if:
(i) The defendant expressly consents;
(ii) The state's evidence is unavailable and the prosecution has exercised
due diligence; or
(iii) Required in the due administration of justice and the defendant will
not be substantially prejudiced; and
(C) If a continuance is proposed by the state or the court, the defendant shall
be notified. If the defendant objects, the defendant must show in writing how
the delay may prejudice the defense.
(5) Any criminal case not tried or continued as provided in this rule shall be
dismissed 180 days after arraignment.
(6) If the defendant is unavailable for any proceeding at which the defendant's
presence is required, the case may be continued for a reasonable time by the trial
court but for no more than 180 days after the defendant is available or the case
further continued as provided in this rule.
(7) A dismissal for lack of a speedy trial under this rule shall not bar the state
from again prosecuting the defendant for the same offense unless the defendant
made a written demand for a speedy trial or can demonstrate prejudice from the
delay.

Page 7 of 37
Clint Webb v. Wyoming DOC Medium Institution Warden, Et Al

STATEMENT OF THE CASE
The alleged incident occurred on June 30, 2014. The state of Wyoming charged
Webb with one count of aggravated assault on July 1, 2014. Webb turned himself
into the authorities in Las Vegas, NV on July 3, 2014, and was transported to
Natrona County Detention Center on July 23, 2014.
Webb had his first initial appearance under docket number CR-2014-1660 (first
charge) on July 24, 2014. Webb had his first preliminary hearing under docket
number CR-2014-1660 (first charge) on July 31, 2014; however, the State dismissed
the original charge of aggravated assault and recharged Webb with two counts of
aggravated assault and one count of felony property destruction. The new charges
were for the same offense and based on facts, laws and judicial decisions that were
available at the time of the filing of the first charge. The July 31, 2014 hearing
turned out to be the Webb’s second first appearance under docket number CR-20141956 (second charges).
Webb had his second preliminary hearing under docket number CR-2014‘1956
(second charges) on Aug. 8, 2014, which was waived. Webb filed a written demand
for speedy trial on August 15, 2014 (second charges). Webb pled not-guilty at his
first District Court arraignment under criminal action number 19792-A (second
charges) on Sept. 3, 2014.
On October 23, 2014, the state recharged Webb with two counts of aggravated
assault, one count of felony property destruction and one count of attempted second
degree murder under docket number CR-2014-2622 (third charges). The new charge
Page 8 of 37
Clint Webb v. Wyoming DOC Medium Institution Warden, Et Al

was for the same offense and based on facts, laws and judicial decisions that were
available at the time of the filing of the first charge. Webb has his third initial
appearance under docket number CR-2014'2622 (third charges) on Oct. 24, 2014,
where Webb personally questioned the court on his right to a speedy trial.
On October 30, 2014, there was a hearing for Webb to undergo a competency
evaluation under docket number CR-2014-2622 (third charges) that Webb’s defense
counsel (the State’s public defenders) had motioned for, against Webb’s wishes. The
Circuit Court granted defense counsel’s motion despite Webb’s earnest objections.
On October 31, 2014, the District Court held an ex parte hearing on the State’s
motion to dismiss the second set of charges, under criminal action number 19792-A
(second charges). The dismissal and re-filing was because of the prosecutor’s
fulfillment of a threat to Webb that if he did not engage in plea negotiations, the
State would file additional and more severe charges in order to gain an advantage
in plea negotiations. The District Court authorized the dismissal without Webb or
his counsel available to object or be heard.
Webb was found competent to proceed on January 13, 2015 under docket number
CR-2014‘2622 (third charges). Webb has his third preliminary hearing under docket
number CR-2014'2622 (third charges) on Jan. 22 & 23, 2015. On February 4, 2015,
Webb filed his second written demand for a speedy trial (third charges). Webb pled
not-guilty at his second District Court arraignment under criminal action number
19965-A (third charges) on Feb. 25, 2015.

Page 9 of 37
Clint Webb v. Wyoming DOC Medium Institution Warden, Et Al

On June 1, 2015, Webb filed a Motion to Dismiss pending charges (third charges)
for the State’s violation of his Sixth Amendment right to a speedy trial. On June 29,
2015, the District Court held a hearing on Webb’s Motion to Dismiss and ruled, "I
am, I guess, a little confused but ultimately not persuaded that there is a sufficient
basis under Rule 48 that there was a speedy trial violation in this case."
(APPENDIX F).
Webb had a jury trial under criminal action number 19965-A (third charges) at
the earliest available date where the court’s docket had the adequate amount of
time needed for the trial, July 27, 2015 through July 31, 2015. The jury found Webb
guilty of two counts of aggravated assault, one count of felony property destruction
and one count of attempted second degree murder on July 31, 2015. On December 2
2015, the District Court sentenced Webb to concurrent terms of five to seven years
for each count of aggravated assault, a concurrent term of one to three years for
property destruction, and a consecutive term of 30 to 45 years for attempted seconddegree murder. Webb’s conviction and sentence was filed on Dec. 31, 2015.
Webb timely filed a direct appeal and had oral arguments for his direct appeal in
the Wyoming Supreme Court under S-16-0081 on March 15, 2017. Webb’s
conviction was affirmed by a divided panel of the Wyoming Supreme Court under S16-0081 on Sept. 15, 2017 (APPENDIX E). The mandate from the Wyoming
Supreme Court was released on Oct. 3, 2017.
Webb timely filed a Petition for Post-Conviction in the District Court on July 19,
2018, which was dismissed with prejudice on November 27, 2018 (APPENDIX D).
Page 10 of 37
Clint Webb v. Wyoming DOC Medium Institution Warden, Et Al

Webb timely filed a Writ of Certiorari/Writ of Review with the Wyoming Supreme
Court on December 14, 2018, that was dismissed on January 17, 2019 (APPENDIX
C).
Webb timely filed a Petition for Writ of Habeas Corpus in the U.S. District Court
for the District of Wyoming under D19-CV-39-ABJ on February 21, 2019. The U.S.
District Court for the District of Wyoming dismissed Webb’s Petition for Writ of
Habeas Corpus on April 13, 2020 (APPENDIX B).
Webb timely filed a Combination Opening Brief and Application for Certificate of
Appealability with the U.S. Court of Appeals for the Tenth Circuit under 20-8023 on
June 12, 2020. The U.S. Court of Appeals for the Tenth Circuit denied Webb a
Certificate of Appealability on March 15, 2021 (APPENDIX A).

REASONS FOR GRANTING THE PETITION
New Questions for Review
I.

If a state creates a liberty interest by providing a procedural mechanism
to enforce and ensure a defendant's constitutional right to a speedy trial,
is that rule prohibited from being applied to the Due Process Clause of the
Fourteenth Amendment?

The Question Raised in this Petition is Constitutional and Unresolved
Federal District and Circuit Courts have sanctioned the state courts procedures
that unfairly and arbitrarily deprive defendants of their liberty, in direct conflict
Page 11 of 37
Clint Webb v. Wyoming DOC Medium Institution Warden, Et Al

with the Due Process Clause of the Fifth and Fourteenth Amendment. The federal
courts have allowed this denial of a Constitutional right due to this Court having
not previously addressed this issue. “The United States Supreme Court has not
addressed the application of any state-created liberty interests flowing from state
speedy trial statutes. In the absence of such authority, Petitioner is not entitled to
habeas relief.” Reno v. Davis, 2017 U.S. Dist. LEXIS 213593 (9th Cir. 2017). A
defendant “is not entitled to habeas relief in connection with the state court's
interpretation or application of the Ohio speedy trial statute.” Green v. Andrews,
2010 U.S. Dist. LEXIS 47694 (6th Cir. 2010). The 4th Circuit has held that even if a
defendant’s “state-created right to a speedy trial had been violated, it would not
entitle him to 2254 relief.” Uzzle v. Fleming, 2017 U.S. Dist. LEXIS 130198 (4th Cir.
2017). The state and federal courts unfair and arbitrary denial of due process of a
state created liberty interest is in conflict with the U.S. Supreme Court’s ruling in
Hicks v. Oklahoma, 447 U.S. 343, 346, 65 L. Ed. 2d 175, 100 S. Ct. 2227 (1980). In
its present posture, this case presents a novel and unresolved issue, not controlled
by any prior decisions of this Court. If a state creates a liberty interest by providing
a procedural mechanism to enforce and ensure a defendant's constitutional right to
a speedy trial, is that rule prohibited from being applied to the Due Process Clause
of the Fourteenth Amendment?
The U.S. Supreme Court has consistently recognized the right to a speedy trial as
a fundamental right. “[T]he right to a prompt inquiry into criminal charges is
fundamental and the duty of the charging authority is to provide a prompt trial.”
Page 12 of 37
Clint Webb v. Wyoming DOC Medium Institution Warden, Et Al

Dickey v. Florida, 398 U.S. 30, 37-38, 26 L. Ed. 2d 26, 90 S. Ct. 1564 (1970). “We
hold here that the right to a speedy trial is as fundamental as any of the rights
secured by the Sixth Amendment. That right has its roots at the very foundation of
our English law heritage. Its first articulation in modern jurisprudence appears to
have been made in Magna Carta (1215), .." Klopfer v. North Carolina, 386 U.S. 213,
223, 18 L. Ed. 2d 1, 87 S. Ct. 988 (1967). This Court has recognized that a
fundamental right is subject to proscription under the Due Process Clause. “[T]he
State's power to regulate procedural burdens was subject to proscription under the
Due Process Clause if it ‘offends some principle of justice so rooted in the traditions
and conscience of our people as to be ranked as fundamental,’” Cooper v. Oklahoma,
517 U.S. 348, 367,134 L. Ed. 2d 498, 116 S. Ct. 1373 (1996).
Wyoming has implicated the federal right of the Constitutional right to a speedy
trial with Wyoming Rules of Criminal Procedure (W.R.Cr.P.) 48. “Wyoming's Rules
of Criminal Procedure provide a procedural mechanism for enforcing a defendant's
constitutional right to a speedy trial. W.R.Cr.P. 48(b).” Tate v. State, 382 P.3d 762
767 (Wyo. 2016). “In recognition that W.R.Cr.P. 48 provides criminal defendants a
procedural mechanism to ensure the protection of this constitutional right, we have
held that compliance with its terms is mandatory.” Detheridge v. State, 963 P.2d
233 (Wyo. 1998). This Court should consider this issue because Rule 48 is a
procedural mechanism to ensure and enforce the constitutional right to a speedy
trial. “[W]e consider here whether a State's procedures for guaranteeing a

Page IB of 37
Clint Webb v. Wyoming DOC Medium Institution Warden, Et Al

fundamental constitutional right are sufficiently protective of that right.” Cooper v.
Oklahoma, 517 U.S. 348, 368,134 L. Ed. 2d 498, 116 S. Ct. 1373 (1996).
This Court has consistently determined that the only remedy for a speedy trial
violation is dismissal of the charges. “In light of the policies which underlie the right
to a speedy trial, dismissal must remain, as Barker noted, ‘the only possible
remedy.’” Strunk v. United States, 412 U.S. 434, 440, 37 L. Ed. 2d 56, 93 S. Ct. 2260
(1973). If the charges against a defendant were dismissed for a speedy trial
violation, then that defendant would be free from restraint in connection with those
charges. Wyoming Rules provide that if a defendant had filed a written demand for
a speedy trial prior to a dismissal for speedy trial violation then the State would be
barred from again prosecuting for the same offense. Additionally, Wyoming
recognizes that a violation of the right to a speedy trial precludes the establishment
of guilt by trial. “A violation of the right to a speedy trial precludes the
establishment of guilt by trial," Zanetti v. State, 783 P.2d 134 (Wyo. 1989). Since
the sole remedy for a speedy trial violation is the dismissal of charges and freedom
from restraint, a state created right to a speedy trial is a liberty interest. That
liberty interest is one that the Fourteenth Amendment preserves against unfair and
arbitrary deprivation by the State. “[W]e recognize that States may under certain
circumstances create liberty interests which are protected by the Due Process
Clause. But these interests will generally be limited to freedom from restraint.”
Wilkinson v. Austin, 545 U.S. 209, 222, 162 L. Ed. 2d 174, 125 S. Ct. 2384 (2005).

Page 14 of 37
Clint Webb v. Wyoming DOC Medium Institution Warden, Et Al

Therefore, freedom from restraint is the only remedy for a speedy trial violation,
which establishes a liberty interest.
The Due Process Clause of the Fourteenth Amendment provides that no state
shall "deprive any person of life, liberty, or property, without due process of law."
U.S. Const. Amend. XIV, 1. This Court has consistently held that, “The Fourteenth
Amendment's Due Process Clause protects persons against deprivations of life,
liberty, or property; and those who seek to invoke its procedural protection must
establish that one of these interests is at stake. A liberty interest may arise from
the Constitution itself, by reason of guarantees implicit in the word ‘liberty,’ or it
may arise from an expectation or interest created by state laws or policies.”
Wilkinson v. Austin, 545 U.S. 209, 221, 162 L. Ed. 2d 174, 125 S. Ct. 2384 (2005).
“We have repeatedly held that state statutes may create liberty interests that are
entitled to the procedural protections of the Due Process Clause of the Fourteenth
Amendment.” Vitek v. Jones, 442 U.S. 480, 488, 63 L. Ed. 2d 552, 100 S. Ct. 1254
(1980). “[A] person's liberty is equally protected, even when the liberty itself is a
statutory creation of the State. The touchstone of due process is protection of the
individual against arbitrary action of government, Dent v. West Virginia, 129 U.S.
114, 123, 32 L. Ed. 623, 9 S. Ct. 231 (1899).” Wolff v McDonnell, 418 U.S. 539, 558,
41 L. Ed. 2d 935, 94 S. Ct. 2963 (1974).
This is a case involving an "unfair and arbitrary denial" of a state created liberty
interest, in in violation of the U.S. Constitution. Wyoming denied Webb the
procedural mechanism that enforces and ensures the constitutional right to a
Page 15 of 37
Clint Webb v. Wyoming DOC Medium Institution Warden, Et Al

speedy trial, to which he was entitled under state law, simply by unfairly changing
and applying two conflicting meanings (depending on the application) to the word
“dismissal” in W.R.Cr.P. 48(b)(7). The Wyoming Supreme Court held that the word
“dismissal” in W.R.Cr.P. 48(b)(7) is to be interpreted as a dismissal under W.R.Cr.P.
48(a) to start the speedy trial time clock anew and that the same “dismissal” in
W.R.Cr.P. 48(b)(7) is to be interpreted as a dismissal under W.R.Cr.P. 48(b)(5) to
bar the state from again prosecuting Webb for the same offense. In doing so,
Wyoming deprived Webb of his liberty without due process of law.
Webb asserts that he was denied his liberty through a due process violation of a
state created liberty interest that ensures and enforces his constitutional right to a
speedy trial. Webb’s claim of a due process violation is not an argument based on
the state courts’ interpretation of a word, but instead is an argument based on the
state courts applying two competing meanings, depending upon the application, of
the same word in an unfair and unjust manner, which denied Webb the
computation of speedy trial time expressly allowed under the rule and denied him of
his liberty. Applying two competing meanings to one word, depending on its
application, is outside the limits of acceptable notions of justice. The U.S. Supreme
Court has consistently held that “judges cannot give the same statutory text
different meanings in different cases.” United States v. Santos, 553 U.S. 507, 128 S.
Ct. 2020, 170 L. Ed. 2d 912, 916 (2008). As far as applying two conflicting
interpretations at the same time, as Wyoming did in Webb’s case, this Court has

Page 16 of 37
Clint Webb v. Wyoming DOC Medium Institution Warden, Et Al

held that “It cannot, however, be interpreted to do both at the same time.” Clark v.
Martinez, 543 U.S. 371, 378, 125 S. Ct. 716, 160 L. Ed. 2d 734 (2005).
“Clark v. Martinez, 543 U.S. 371, 125 S. Ct. 716, 160 L. Ed. 2d 734(2005),
held that the meaning of words in a statute cannot change with the statute's
application. See id., at 378, 125 S. Ct. 716, 160 L. Ed. 2d 734. To hold
otherwise "would render every statute a chameleon," id., at 382, 125 S. Ct.
716, 160 L. Ed. 2d 734, and "would establish within our jurisprudence . . .
the dangerous principle that judges can give the same statutory text different
meanings in different cases," id., at 386, 125 S. Ct. 716, 160 L. Ed. 2d 734.”
Quoting United States v. Santos, 553 U.S. 507, 522, 128 S. Ct. 2020, 170 L.
Ed. 2d 912 (2008).

Webb has a substantial and legitimate expectation that he has been deprived of
his liberty by the unfair and arbitrary denial of the state created procedural
mechanism that ensures and enforces his Constitutional right to a speedy trial.
The Procedures used Erroneously Deprives Defendants of their Liberty Interest
Rule 48(b)(7) states^ “A dismissal for lack of speedy trial under this rule shall not
bar the state from again prosecuting the defendant for the same offense unless the
defendant made a written demand for a speedy trial or can demonstrate prejudice
from the delay (boldness added).” It is important to note that dismissal is mentioned
only once in Rule 48(b)(7). In Hall v. State, when the State dismissed charges due to
a lack of speedy trial and re-filed charges, the State court ruled, “Rule 48(b)(8) [now
(b)(7)] provides that upon dismissal under the rule, the State is not barred from
again prosecuting the defendant for the same offense unless the defendant made a
written demand for speedy trial or can demonstrate prejudice from the delay.
Implied in that reading is that the 120day [now 180-day] period will begin anew
Page 17 of 37
Clint Webb v. Wyoming DOC Medium Institution Warden, Et Al

after each filing (boldness added).” Hall v. State, 911 P.2d 1364 (Wyo. 1996). After
this ruling, Wyoming consistently started the speedy trial time clock anew any time
a criminal case was dismissed and then refiled.
In Rhodes v. State, Rhodes argued that "Rule 48 does nothing to limit the
number of times the State can dismiss and refile a charge, therefore does nothing to
protect the accused, and affords the State an almost unlimited amount of time to
build a case and hold a defendant in jail while it does so." The Wyoming Supreme
Court clarified that the “dismissal” in Rule 48(b)(7), which implies that the speedy
trial time clock to start anew, is interpreted as the “dismissal” identified in Rule
48(a). “In light of our precedent holding that the speedy trial period begins anew
when charges are re-filed against a defendant,... would be consistent with Wyoming
precedent interpreting W.R.Cr.P. 48(a), which permits the State to dismiss charges
against a defendant ‘by leave of court (boldness added).’” Rhodes v. State, 348 P.3d
404 (Wyo. 2015).
In Webb’s case, he had filed a written demand for a speedy trial on Aug. 15, 2014
and had his arraignment on Sept. 3, 2014. Then at the end of Oct. 2014, the State
dismissed and re-filed charges against Webb for the same offense (based on facts,
laws, and judicial decisions available when the State first filed charges against
Webb) under W.R.Cr.P. 48(a). Under the precedent ruling from Rhodes, Wyoming
would have been barred from again prosecuting Webb for the same offense because
Webb had previously filed a written demand for a speedy trial (as required to bar

Page 18 of 37
Clint Webb v. Wyoming DOC Medium Institution Warden, Et Al

the State from again prosecuting for the same offense under Rule 48(b)(7)) prior to
the State dismissing the charges under W.R.Cr.P. 48(a).
On June 1, 2015, Mr. Webb filed a Motion to Dismiss due to a lack of Speedy
Trial. On June 29, 2015, the District Court held a Motions Hearing and ruled, "I
am, I guess, a little confused but ultimately not persuaded that there is a sufficient
basis under Rule 48 that there was a speedy trial violation in this case."
(APPENDIX F). In that ruling, the second interpretation of dismissal in W.R.Cr.P.
48(b)(7) was not given. Webb could not have presented the claim of the
Constitutional

due

process violation for unfairly applying two

competing

interpretations of W.R.Cr.P. 48(b)(7) in his direct appeal because the second
interpretation was not given prior to his direct appeal.
Webb argued that his right to a speedy trial was violated in his direct appeal. In
a 3 to 2 split decision of Webb’s direct appeal, the State court changed the precedent
interpretation of dismissal in Rule 48(b)(7) set under Rhodes. The State court gave
a new, second interpretation of dismissal in Rule 48(b)(7). “A plain reading of Rule
48(b)(7) makes it clear that Mr. Webb’s speedy trial demand can affect the re-filing
of charges only if the previous charges were dismissed due to a lack of speedy trial.”
Webb v. State, 401 P.3d 914, 920 (Wyo. 2017). The State court interpreted the
dismissal in Rule 48(b)(7) to be a “dismissal” according to Rule 48(b)(5), which
states, “Any criminal case not tried or continued as provided in this rule shall be
dismissed 180 days after arraignment (boldness added).” If the State court
interprets the dismissal in Rule 48(b)(7) as only a dismissal required by Rule
Page 19 of 37
Clint Webb v. Wyoming DOC Medium Institution Warden, Et Al

48(b)(5), then when applying Hall to Rule 48(b)(7), it would imply that the speedy
trial time clock starts anew only if the dismissal was required by Rule 48(b)(5) and
not a dismissal under Rule 48(a) as indicated in Rhodes.
The State court’s new interpretation of dismissal in Rule 48(b)(7) directly
conflicts with the precedent set in Rhodes that the dismissal in Rule 48(b)(7) is a
dismissal under Rule 48(a). However, the State court applies the precedent
interpretation to start the speedy trial time clock anew and circumvent the 180 day
limitation; then applies the new, second interpretation to circumvent the
requirement that the State would be barred from again prosecuting Webb because
he had filed a written demand for a speedy trial prior to the State’s dismissal. The
State courts indirectly applies the precedent interpretation to start the speedy trial
time clock anew and then directly applies the new, competing interpretation to
allow the State to again prosecute Webb for the same offense. The two
interpretations are unfairly applied to the detriment of Webb and to benefit the
State. Black’s law dictionary defines the Due Process Clause as “the constitutional
provision that prohibits the government from unfairly or arbitrarily depriving a
person of life, liberty, or property.” The procedure used for W.R.Cr.P. 48 unfairly
deprives Webb of his liberty.
By unfairly applying two competing interpretations of the same word to
benefit the State, a defendant loses the guarantee of Rule 48 to be brought to trial
within 180 days of his arraignment and the State gains an infinite amount of time
to bring a defendant to trial. In doing so, the State courts are in violation of
Page 20 of 37
Clint Webb v. Wyoming DOC Medium Institution Warden, Et Al

W.R.Cr.P. 2. Rule 2 specifically states that Rule 48 shall be construed to secure
simplicity in procedure, fairness in administration and the elimination of
unjustified expense and delay. W.R.Cr.P. 2 is practically identical to the F.R.Cr.P. 2.
“Only those state procedural rules that are "independent and adequate," however,
will prevent federal habeas review on the merits. To be independent, the rule must
not be interwoven or intertwined with federal law.” Stuart v. Fisher, 2012 U.S. Dist.
LEXIS 126353, 9 (9th Cir. 2012). Wyoming precedent clearly states that the delay
caused when the State dismissed and re-filed charges against Webb was
unnecessary. “The prosecutor, not the supreme court and not the district court
must decide how to charge a defendant. If he later changes the charge because he
changes his mind, then any delay that results is unnecessary.” Caton v. State, 709
P.2d 1260 (Wyo. 1985). Therefore, the State court’s ruling on Rule 48 is unfair in
administration and does not eliminate unjustifiable delays as required by W.R.Cr.P.
2 and F.R.Cr.P. 2.
The state courts construction of the W.R.Cr.P. 48 ignores its plain language and
circumvents its basic purpose, as Justice FOX and Chief Justice BURKE
acknowledged in their dissent on Webb’s direct appeal, “Our acquiescence in the
State's repeated circumvention of the speedy trial rule by dismissing and refiling to
start the clock anew has the effect of eviscerating W.R.Cr.P. 48.” Webb v. State, 401
P.3d 914, 930 (Wyo. 2017).
By applying two meanings to dismissal in Rule 48(b)(7) the State can repeatedly
dismiss and refile charges prior to the 180 day limitation and receive a new speedy
Page 21 of 37
Clint Webb v. Wyoming DOC Medium Institution Warden, Et Al

trial time clock. Therefore W.R.Cr.P. 48 does nothing to protect the accused, and
affords the State an almost unlimited amount of time to build a case and hold a
defendant in jail while it does so. The unusual Wyoming procedure, which in effect
allows state prosecuting officials to put a person under the cloud of an unliquidated
criminal charge for an indeterminate period, violates the requirement of
fundamental fairness assured by the Due Process Clause of the Fourteenth
Amendment. See Klopfer v. North Carolina, 386 U.S. 213, 226-227, 18 L. Ed. 2d 1,
87 S. Ct. 988 (1967).
In the District Court’s ruling, "I am, I guess, a little confused but ultimately not
persuaded that there is a sufficient basis under Rule 48 that there was a speedy
trial violation in this case (APPENDIX F)” at the hearing for Webb’s Motion to
Dismiss for Lack of Speedy Trial, the second interpretation of dismissal in
W.R.Cr.P. 48(b)(7) was not given. Webb could not have presented the claim of the
Constitutional

due process violation for unfairly applying two

competing

interpretations of W.R.Cr.P. 48(b)(7) in his direct appeal because the second
interpretation was not given prior to his direct appeal.
Webb presented the claim of the Constitutional due process violation for unfairly
applying two competing interpretations of W.R.Cr.P. 48(b)(7) in his pro se Petition
for Post-Conviction Relief and his pro se Writ of Certiorari / Review. However, the
state courts ruled that the due process claim was procedurally barred from review
because the substance was that his speedy trial rights were violated and the
Wyoming Supreme Court had already ruled that the rights were not violated in
Page 22 of 37
Clint Webb v. Wyoming DOC Medium Institution Warden, Et Al

Webb’s direct appeal (APPENDIX D & C). Since the due process violation for
unfairly applying two competing interpretations was not available at the time of
Webb’s direct appeal and then procedurally barred from review after the direct
appeal, then the procedures used by Wyoming courts arbitrarily denied Webb to
have the due process claim to be addressed.
By applying two competing interpretations of “dismissal” in W.R.Cr.P. 48(b)(7),
the Wyoming Supreme Court has shown that the language in the rule is ambiguous
and vague. The U.S. Supreme Court has held:
v\

The prohibition of vagueness in criminal statutes," our decision in Johnson
explained, is an "essential" of due process, required by both "ordinary
, 135 S. Ct.
notions of fair play and the settled rules of law." 576 U.S., at
2551, 192 L. Ed. 2d 569, 577) (quoting Connally v. General Constr. Co., 269
U.S. 385, 391, 46 S. Ct. 126, 70 L. Ed. 322 (1926)). The void-for-vagueness
doctrine, as we have called it, guarantees that ordinary people have "fair
notice" of the conduct a statute proscribes. Papachristou v. Jacksonville, 405
U.S. 156, 162, 92 S. Ct. 839, 31 L. Ed. 2d 110 (1972). And the doctrine guards
against arbitrary or discriminatory law enforcement by insisting that a
statute provide standards to govern the actions of police officers, prosecutors,
juries, and judges. See Kolenderv. Lawson, 461 U.S. 352, 357*358, 103 S. Ct.
1855, 75 L. Ed. 2d 903 (1983).” Quoting Sessions v. Dimaya, 138 S. Ct. 1204,
1212, 200 L. Ed. 2d 549 (2017).
Webb was not given “fair notice” of the second interpretation of “dismissal” prior
to his direct appeal; and then the State arbitrarily barred Webb from review of the
due process violation after he was given notice of the second interpretation.
In Webb’s Writ of Habeas Corpus in the U.S. District Court for the District of
Wyoming, he presented the claim of the Constitutional due process violation of the
state created procedural mechanism that enforces and ensures a defendant’s
Page 23 of 37
Clint Webb v. Wyoming DOC Medium Institution Warden, Et Al

constitutional right to a speedy trial. Webb argued that Wyoming violated due
process when it created a liberty interest and then unfairly and arbitrarily denied
that liberty interest by applying two conflicting interpretations to the same word in
order to circumvent the requirements of the rule that created the liberty interest.
The U.S. District Court dismissed this claim and stated that the Court was bound
by the state courts analysis of state law,' thus, the claim was not cognizable in
federal habeas review (APPENDIX B).
Webb presented the claim of the Constitutional due process violation for the
State courts unfairly applying two conflicting interpretations to the state created
procedural mechanism that enforces and ensures a defendant’s constitutional right
to a speedy trial to the U.S. Court of Appeals for the Tenth Circuit in his Combined
Opening Brief and Application for a Certificate of Appealability. The U.S. Court of
Appeals denied a Certificate of Appealability for this by claiming that the “Wyoming
Supreme Court’s resolution of this issue presents a non-reviewable determination of
state law. (APPENDIX A)”
The state courts and federal courts also denied Webb correction of the due
process violation through the constitutionahvoidance canon. “The canon of
constitutional avoidance comes into play only when, after the application of
ordinary textual analysis, the statute is found to be susceptible of more than one
construction,' and the canon functions as a means of choosing between them. See,
e.g., Almendarez-Torres v United States, 523 U.S. 224, 237-238, 140 L. Ed. 2d 350,
118 S. Ct. 1219 (1998); United States ex rel. Attorney General v Delaware &
Page 24 of 37
Clint Webb v. Wyoming DOC Medium Institution Warden, Et Al

Hudson Co., 213 U.S. 366, 408, 53 L. Ed. 836, 29 S. Ct. 527 (1909).” Quoting Clark
v. Martinez, 543 U.S. 371, 385, 125 S. Ct. 716, 160 L. Ed. 2d 734 (2005). “Under the
constitutional-avoidance canon, when statutory language is susceptible of multiple
interpretations,

a

court

may

shun

an interpretation that

raises

serious

constitutional doubts and instead may adopt an alternative that avoids those
problems.” Jennings v. Rodriguez, 138 S. Ct. 830, 836; 200 L. Ed. 2d 122 (2018).
Webb was unable to have any state or federal court hear the claim of the due
process violation for unfairly applying two conflicting interpretations to a state
created liberty interest because the claim was not available at the time of Webb’s
direct appeal, then the claim was procedurally barred from review by the state
courts after the direct appeal, and then the procedures used by the federal courts
denied Webb review of a state created liberty interest. The U.S. District and Circuit
Court have sanctioned the state courts procedures that unfairly and arbitrarily
deprive defendants of their liberty, in direct conflict with the Due Process Clause of
the Fourteenth Amendment. The state and federal courts have so far departed from
the acceptable and usual course of judicial proceedings and sanctioned such a
departure that it calls for an exercise of the U.S. Supreme Court’s supervisory
power.
The Wyoming Supreme Court erred in its application of the Speedy Trial Rule
Wyoming has implicated that their rulings as to the application of W.R.Cr.P.
48 is guided by federal law and federal precedent. “Wyoming’s rule 48 is nearly
identical to its federal counterpart, and we find guidance from our nation’s highest
Page 25 of 37
Clint Webb v. Wyoming DOC Medium Institution Warden, Et Al

court and the several circuits as to how this rule ought to be applied. Bird v. State,
901 P.2d 1123, 1129 (Wyo. 1995) ([0]ur interpretation of our Wyoming Rules of
Criminal Procedure having their source in the federal rules, we afford great
persuasive weight to federal precedent.)” State v. Bridger, 2014 Wyo. LEXIS 193
(Wyo. 2014). The U.S. Supreme Court has associated the imposed time limit in
W.R.Cr.P. 48 with the Speedy Trial Act, 18 U.S.C. § 3161. “Congress passed the
Speedy Trial Act of 1974, 18 U. S. C. § 3161 et seq.,

\V

to give effect to the sixth

amendment right." United States v. MacDonald, 456 U. S. 1, 7, n. 7, 102 S. Ct. 1497,
71 L. Ed. 2d 696 (1982) (quoting S. Rep. No. 93-1021, p. 1 (1974)). ... Numerous
state analogs similarly impose precise time limits for charging and trial [n. 7, Wyo.
Rule Crim. Proc. 48 (2015).]” Betterman v. Montana, 136 S. Ct. 1609, 1616, 194 L.
Ed. 2d 723 (2016).
Wyoming courts have circumvented the imposed time limit identified in Rule
48 by starting the speedy trial time clock anew when the prosecution repeatedly
dismisses and refiles charges against a defendant for the same offense in order to
add additional charges. In Wyoming, it is not necessary for the State to dismiss and
refile charges to add an additional charge. The State could have amended the
information and added the additional charge without dismissing and refiling. “The
State moved to amend the information to include an additional eight counts ... The
district court held a hearing on the motion and allowed the amendment.” Tate v.
State, 382 P.3d 762, 766 (Wyo. 2016). By dismissing and refiling charges against a
defendant for the same offense, as the State did in Webb’s case, the State clearly
Page 26 of 37
Clint Webb v. Wyoming DOC Medium Institution Warden, Et Al

circumvents the imposed time limit identified in Rule 48 and gains the advantage of
having the speedy trial time clock start anew.
As a general rule, the filing of a superseding indictment does not affect the
speedy trial timetable for offenses either charged in the original indictment or
required under double jeopardy principles to be joined with such charges. See
United States v. Rojas-Contreras, 474 U.S. 231, 239*40, 88 L. Ed. 2d 537, 106 S. Ct.
555 (1985). Federal courts have consistently followed this rule. “As a general
matter, where a criminal defendant has been charged and is awaiting trial, and the
government thereafter either returns a superseding indictment or re-indicts the
defendant after dismissing the previous indictment without prejudice, any offenses
charged in the new indictment that were also charged in the previous indictment do
not receive a new speedy trial period.” United States v. Bermea, 30 F.3d 1539, 1567
(5th Cir. 1994). “[I]f the government indicts a defendant for a particular crime,
dismisses that charge, and indicts the defendant once again for the same offense,
the speedytrial calculation begins with the initial indictment or arraignment but
excludes the time between the dismissal and subsequent re-indictment.” United
States v. Young, 528 F.3d 1294, 1295-1296 (llth Cir. 2008). “The reason for this
rule is obvious. If the clock began anew, the government could circumvent the
limitations of the Speedy Trial Act by repeatedly dismissing and refiling charges
against a defendant.” United States v. Hoslett, 998 F.2d 648, 658 n.12 (9th Cir.
1993).

Page 27 of 37
Clint Webb v. Wyoming DOC Medium Institution Warden, Et Al

Wyoming Courts have implicated that their rulings on Rule 48 are guided by
the federal counterpart, the U.S. Supreme Court and the several circuits. However,
allowing the State to restart the speedy trial time clock by dismissing and refiling
charges has so far departed from the accepted and usual course of judicial
proceedings as to call for an exercise of this Courts supervisory power. In Webb’s
direct appeal, Justice FOX and Chief Justice BURKE has implicated that their
ruling as to the application of Rule 48 is guided by federal law and federal
precedent in their dissent,
“Allowing the State to restart the speedy trial clock by dismissing and
refiling charges defeats the purpose of the rule, (n.8 Federal courts
applying the Speedy Trial Act, 18 U.S.C. § 3161(c)(1), have recognized
this. See e.g., United States v. Rojas-Contreras, 474 U.S. 231, 239, 106
S. Ct. 555, 559, 88 L.Ed.2d 537 (1985) (Blackmun, J., concurring in the
judgment, recognizing the reason federal law does not permit the clock
to restart when the government dismisses and refiles is to ‘protectO
against governmental circumvention of the speedy-trial guarantee’);
United States v. Hoslett, 998 F.2d 648, 658 n.12 (9th Cir. 1993) (‘If the
clock began anew, the government could circumvent the limitations of
the Speedy Trial Act by repeatedly dismissing and refiling charges
against a defendant.’).)” Webb v. State, 401 P.3d 914, 930 (Wyo. 2017).

Wyoming Rules of Criminal Procedure 48 states:
Rule 48. Dismissal! speedy trial.
(a) By attorney for the state. The attorney for the state may, by leave of court,
file a dismissal of an indictment, information or citation, and the prosecution
shall thereupon terminate. Such a dismissal may not be filed during the trial
without the consent of the defendant.
(b) Speedy trial.
Page 28 of 37
Clint Webb v. Wyoming DOC Medium Institution Warden, Et Al

(l) It is the responsibility of the court, counsel and the defendant to insure
that the defendant is timely tried.
(2) A criminal charge shall be brought to trial within 180 days following
arraignment unless continued as provided in this rule.
(3) The following periods shall be excluded in computing the time for trial:
(A) All proceedings related to the mental illness or deficiency of the
defendant;
(B) Proceedings on another charge;
(C) The time between the dismissal and the refiling of the same
charge; and
(D) Delay occasioned by defendant's change of counsel or application
therefor.
(4) Continuances exceeding 180 days from the date of arraignment may be
granted by the trial court as follows:
(A) On motion of defendant supported by affidavit; or
(B) On motion of the attorney for the state or the court if:
(i) The defendant expressly consents!
(ii) The state's evidence is unavailable and the prosecution has
exercised due diligence! or
(iii) Required in the due administration of justice and the
defendant will not be substantially prejudiced! and
(C) If a continuance is proposed by the state or the court, the
defendant shall be notified. If the defendant objects, the defendant
must show in writing how the delay may prejudice the defense.
(5) Any criminal case not tried or continued as provided in this rule shall be
dismissed 180 days after arraignment.
(6) If the defendant is unavailable for any proceeding at which the
defendant's presence is required, the case may be continued for a reasonable
time by the trial court but for no more than 180 days after the defendant is
available or the case further continued as provided in this rule.

Page 29 of 37
Clint Webb v. Wyoming DOC Medium Institution Warden, Et Al

(7) A dismissal for lack of a speedy trial under this rule shall not bar the
state from again prosecuting the defendant for the same offense unless the
defendant made a written demand for a speedy trial or can demonstrate
prejudice from the delay.
Under W.R.Cr.P. 48(b)(2), Webb has a right to have criminal charges brought to
trial within 180 days following arraignment unless continued as provided by the
rule. According to W.R.Cr.P. 48(b)(5), a criminal case that is not tried or continued
as provided by the rule shall be dismissed 180 days after arraignment. If the
criminal case was dismissed for lack of speedy trial and a defendant had made a
written demand for a speedy trial, then the state would be barred from again
prosecuting the defendant for the same offense, W.R.Cr.P. 48(b)(7).
On August 15, 2014, Webb put the Court and the State on notice that he wished
to proceed to trial in a timely manner by fding a written demand for a speedy trial
in compliance with Rule 48(b)(1). Webb’s written demand for a speedy trial also
triggered the protection in Rule 48(b)(7) that the state would be barred from again
prosecuting him for the same offense upon dismissal for lack of speedy trial under
the rule. Rule 48(b)(2) clearly fixes the beginning point of the speedy trial time clock
to be upon the date of the arraignment, which is the same as federal law and federal
precedent (see 18 U.S.C. § 3161(c)(1)). "The plain language of the [Speedy Trial Act]
requires a not guilty plea to begin the clock running." United States v. O'Dell, 154
F.3d 358, 360 (6th Cir. 1998). Rule 48 does not refer to the date of any superseding
arraignment. Given this unambiguous language, there is no choice but to conclude
that Rule 48 did not intend that the 180-day trial preparation period begin to run

Page 30 of 37
Clint Webb v. Wyoming DOC Medium Institution Warden, Et Al

* ‘

from the date of a superseding arraignment, which is the same as federal law and
federal precedent.
"[T]he superseding indictment does not affect the running of the time on . . .
charges that were in the original indictment as well as the superseding
indictment.’ Moreover, the speedy trial clock continues to run not only on
offenses actually charged in the original indictment, but on those required
under double jeopardy principles to be joined with the original offenses as
well. United States v. Marshall, 935 F.2d 1298, 1302 (D.C. Cir. 1991); United
States v. Gonzales, 897 F.2d 1312, 1316 (5th Cir. 1990)” United States v.
Kennedy, 1994 U.S. App. LEXIS 21374, 4-5 (C.A. 7th Cir. 1994).
The conclusion (that Rule 48 did not intend that the 180‘day trial
preparation period begin to run from the date of a superseding arraignment) finds
additional support in the language of Rule 48(b)(3)(C), which indicates that the
period between the dismissal and the refiling of the same charge shall be excluded
in computing the time for trial, which is the same as federal law and federal
precedent (see 18 U.S.C. § 3161(h)(5)). “[T]he time during dismissal and
reindictment should be excluded from the length of delay considered under the
speedy trial clause of the sixth amendment.” United States v. Hayden, 860 F.2d
1483, 1486 (C.A. 9th Cir. 1988). Had the rule intended that the 180'day trial
preparation period of Rule 48(b)(2) commence or recommence from the date of a
superseding arraignment, it would have so provided. Under the plain language of
Rule 48(b)(2), Webb’s speedy trial time clock was triggered to start on Sept. 3, 2014
when he had his arraignment and he pled not-guilty to the charges.
The time periods that are to be excluded in computing time for trial is
specified in Rule 48(b)(3). “In accordance with W.R.Cr.P. 48, we calculate the length
Page 31 of 37
Clint Webb v. Wyoming DOC Medium Institution Warden, Et Al

* t

of a delay by excluding the time periods specified in W.R.Cr.P. 48(b)(3).” McDermott
v. State, 897 P.2d 1295, 1300 (Wyo. 1995). The time periods to be excluded in
computing time for trial in Webb’s case include the 75 days, from October 30, 2014
through January 13, 2015, for a competency evaluation as indicated by Rule
48(b)(3)(A), which is the same as federal law and federal precedent (see 18 U.S.C. §
3161(h)(1)(A)). "[D]elay resulting from any proceeding, including any examinations,
to determine the mental competency or physical capacity of the defendant" is
excluded from the computation of time under the Speedy Trial Act. 18 U.S.C. §
3161(h)(1)(A).” United States v. Pina, 724 Fed. Appx. 413, 418 (6th Cir. 2018). In
computing Webb’s time for trial, 57 total days accrued from arraignment to the
proceeding for a competency evaluation.
As indicated by Rule 48(b)(3)(C), the time between the dismissal and refiling
of the same charge are to be excluded from the computing for the time for trial. In
Webb’s case, the State refiled charges on October 23, 2014 and dismissed the
charges on October 31, 2014,’ therefore there was no time to be excluded between
the dismissal and refiling of the charges. Under Rule 48(b)(4), the trial court may
grant continuances to exceed the 180 days from the date of arraignment, which is
the same as federal law and federal precedent (see 18 U.S.C. § 3161(h)(7)). “In
addition, ‘delay resulting from a continuance’ granted by the district court may be
excluded if the district court makes the findings required by 3161(h)(7).” Bloate v.
United States, 559 U.S. 196, 198-99, 130 S. Ct. 1345, 176 L. Ed. 2d 54 (2010). In
Webb’s case, there were no continuances granted under Rule 48(b)(4).
Page 32 of 37
Clint Webb v. Wyoming DOC Medium Institution Warden, Et Al

<>•

i

Applying Rule 48(b)(2) to the facts of this case, it took 252-days following
arraignment to bring Webb to trial, the 180-days requirement of the rule had
expired. The record reflects that Webb's arraignment occurred on September 3,
2014. Trial was not commenced until July 27, 2015. The 180 days that the State had
to bring the charges to trial, excluding the periods to be excluded in computing the
time specified in Rule 48(b)(3), expired on May 16, 2015 and therefore shall be
dismissed under Rule 48(b)(5), which is the same as federal law and precedent (see
18 U.S.C. § 3162(a)(2)). “Under the STA, ‘[i]f a defendant is not brought to trial
within the time limit required . . . , the information or indictment shall be dismissed
on motion of the defendant.’ 18 U.S.C. 3162(a)(2) (emphasis added).” United States
v. Alvarez-Perez, 629 F.3d 1053, 1060 (9th Cir. 2010). Webb was, therefore,
subjected to a pretrial preparation period past the 180’days required by Rule
48(b)(2). Since the State did not bring Webb to trial as provided in Rule 48 and
because Webb had filed a written demand for a speedy trial, then the charges shall
be dismissed and the State is barred from again prosecuting Webb for the same
offense under Rule 48(b)(7). Webb was guaranteed his liberty (which is protected by
the Due Process Clause of the Fourteenth Amendment) because the rule that
ensured and enforced his Constitutional right to a speedy trial, Rule 48, required
dismissal of the charges and the State was barred from again prosecuting Webb for
the same offense.

Page 33 of 37
Clint Webb v. Wyoming DOC Medium Institution Warden, Et Al

»^

Jl

The Federal Courts erred by finding a Speedy Trial is not Constitutional
Webb timely petitioned the U.S. District Court for the District of Wyoming
for a writ of habeas corpus. The District Court erroneously ruled that a state’s
procedural mechanism to protect the constitutional right to a speedy trial is not
cognizable under habeas review because it is a state law and not a question of
federal law (APPENDIX B). The U.S. Court of Appeals for the 10th Circuit denied
Webb’s timely application for a certificate of appealability for the same reason
(APPENDIX A). The ruling from U.S. District Court and the U.S. Court of Appeals
conflicts with their previous rulings and the U.S. Supreme Court’s ruling in Hicks v.
Oklahoma. “A petitioner may be entitled to habeas relief, however, if he shows that
the alleged violations of State law resulted in a denial of due process. Hicks v.
Oklahoma, 447 U.S. 343, 346, 65 L. Ed. 2d 175, 100 S. Ct. 2227 (1980).” Scott v.
Murphy, 343 Fed. Appx. 338, 340 (10th Cir. 2009).
The Federal Courts erred in stating that W.R.Cr.P. 48 is not cognizable under
habeas review because it is a state law and not a question of federal law. “Only
those state procedural rules that are "independent and adequate," however, will
prevent federal habeas review on the merits. To be independent, the rule must not
be interwoven or intertwined with federal law.” Stuart v. Fisher, 2012 U.S. Dist.
LEXIS 126353, 9 (9th Cir. 2012). Wyoming has implicated that W.R.Cr.P. 48 is
intertwined and guided by federal law and federal precedent. “Wyoming’s rule 48 is
nearly identical to its federal counterpart, and we find guidance from our nation’s
highest court and the several circuits as to how this rule ought to be applied. Bird v.
Page 34 of 37
Clint Webb v. Wyoming DOC Medium Institution Warden, Et Al

< * '*

State, 901 P.2d 1123, 1129 (Wyo. 1995) ([0]ur interpretation of our Wyoming Rules
of Criminal Procedure having their source in the federal rules, we afford great
persuasive weight to federal precedent.)” State v. Bridger, 2014 Wyo. LEXIS 193
(Wyo. 2014). Wyoming has also repeatedly implicated the Constitutional right to a
speedy trial with W.R.Cr.P. 48. “Wyoming's Rules of Criminal Procedure provide a
procedural mechanism for enforcing a defendant's constitutional right to a speedy
trial. W.R.Cr.P. 48(b).” Tate v. State, 382 P.3d 762, 767 (Wyo. 2016). “In recognition
that W.R.Cr.P. 48 provides criminal defendants a procedural mechanism to ensure
the protection of this constitutional right, we have held that compliance with its
terms is mandatory.” Detheridge v. State, 963 P.2d 233, 235 (Wyo. 1998).
The federal courts also erred because, as the U.S. Supreme Court has held, “[a]
liberty interest may arise from the Constitution itself, by reason of guarantees
implicit in the word 'liberty,' or they may arise from an expectation or interest
created by state laws or policies [i.e., 'state-created' liberty interests], see Wilkinson
v. Austin, 545 U.S. 209, 221, 162 L. Ed. 2d 174, 125 S. Ct. 2384 (2005). “[A] person's
liberty is equally protected, even when the liberty itself is a statutory creation of the
State. The touchstone of due process is protection of the individual against arbitrary
action of government, Dent v. West Virginia, 129 US 114, 123, 32 L Ed 623, 9 S Ct
231 (1899).” Wolff v McDonnell, 418 US 539, 558, 41 L. Ed. 2d 935, 94 S. Ct. 2963
(1974). The right to a speedy trial is a liberty interest that arises from the
Constitution itself and from an expectation created by state law. Because the sole
remedy for a speedy trial violation is dismissal of the charges, Webb has a
Page 35 of 37
Clint Webb v. Wyoming DOC Medium Institution Warden, Et Al

* «

substantial and legitimate expectation that he has been deprived of his liberty by
the state courts departing from the accepted and usual course of judicial
proceedings in ruling on the procedural mechanism to ensure and enforce his right
to a speedy trial. Where a State has provided a procedural mechanism to enforce a
defendant’s constitutional right to a speedy trial, it is not correct to say that the
defendant’s interest in the exercise of that procedural mechanism is merely a
matter of state procedural law (See Hicks v. Oklahoma, 447 US 343, 346, 65 L. Ed.
2d 175, 100 S. Ct. 2227 (1980)).
The federal courts should have entertained Webb’s speedy trial claims because
the right to a speedy trial is a liberty interest that applies to Webb through the Due
Process Clause of the Fourteenth Amendment, which is a question federal courts
exist to entertain. The U.S. District Court for the District of Wyoming and the U.S.
Court of Appeals for the Tenth Circuit have so far departed from the accepted and
usual course of judicial proceedings, by incorrectly asserting that the right to a
speedy trial is not a liberty interest that is protected by the Fourteenth Amendment
and is merely a matter of state procedural law, that it calls for an exercise of this
Courts supervisory power.

CONCLUSION

Federal District and Circuit Courts have sanctioned the state courts procedures
that unfairly and arbitrarily deprive defendants of their liberty, in direct conflict
with the Due Process Clause of the Fourteenth Amendment. The right to a speedy
Page 36 of 37
Clint Webb v. Wyoming DOC Medium Institution Warden, Et Al

« * *

trial is a liberty interest that arises from the Constitution itself and from an
expectation created by state law (W.R.Cr.P. 48). Webb has been deprived of his
legitimate liberty expectation by the due process violation of unfairly applying two
conflicting interpretations of the same word in a way that only benefits the State
and then arbitrarily denied Webb review of that due process violation. The state
and federal courts have so far departed from the acceptable and usual course of
judicial proceedings and sanctioned such a departure that it calls for an exercise of
the U.S. Supreme Courts supervisory power.
Under the plain reading of Rule 48, it took 252 computable days for the state to
bring Webb to trial in violation of the 180 day limitation required by Rule 48. Due
Process requires reversal, dismissal and the State is barred from again prosecuting
Webb for the same offense, which would grant Webb his liberty. Under the
Fourteenth Amendment, Webb has a Constitutional right to not be deprived of his
liberty without due process of law.
The petition for a writ of certiorari should be granted.

Clint R. Webb
Date: June 10, 2021.

Page 37 of 37
Clint Webb v. Wyoming DOC Medium Institution Warden, Et Al

